HHS/OIG, Audit -"Audit of Baylor University Medical Center's Organ Acquisition Costs Claimed for the Period July 1, 1996, Through June 30, 2001,"(A-06-04-00017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Baylor University Medical Center's Organ Acquisition Costs Claimed for the Period
July 1, 1996, Through June 30, 2001," (A-06-04-00017)
May 11, 2005
Complete
Text of Report is available in PDF format (1.3 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of
this audit was to determine whether organ acquisition costs claimed on the fiscal years (FYs) 1997
through 2001 Medicare cost reports by Baylor for its lung, kidney, liver, heart, and pancreas transplant
programs were allowable.  Baylor did not comply with Medicare law, regulations, and guidelines
for claiming organ acquisition costs in the preparation of its Medicare Part A cost reports and received
excess Medicare reimbursement for organ acquisition activities.  Baylor claimed $5,010,761 in
unallowable costs, of which Medicare overpaid Baylor an estimated $4,195,303.  Baylor also claimed
$13,633,200 in unsupported costs.  If Baylor cannot provide support for the $13,633,200, the
result would be an estimated Medicare overpayment of $9,157,378.  We recommended that the Medicare
intermediary recover the Medicare overpayment of $4,195,303; work with Baylor and recover the portion
of the $9,157,378 that Baylor is unable to support with allowable organ acquisition costs; review
organ acquisition costs claimed in subsequent years for issues similar to those identified in FYs
1997 through 2001, and recover any Medicare overpayments; monitor future Medicare cost report claims
for organ acquisition costs from Baylor to ensure compliance with Medicare requirements; and instruct
Baylor to develop and maintain adequate time-and-effort reporting and accounting controls, and to
provide clear direction to personnel as to Medicare requirements for claiming and documenting organ
acquisition costs.  The Medicare intermediary agreed with our findings and recommendations.  Baylor
did not agree with our application of reasonable compensation equivalent limits.